    OfJice of Inspector General




Usefulness of IM's 

     Website 


        March 28, 2008 

   Inspection Report No. 436 

                                                                   UNITED STATES 

                                         SECURITIES AND EXCHANGE COMMISSION 

I
                                                            WASHINGTON, D.C. 20549 

                Office of Inspector 

                     General 


                              To:       Andrew J. Donohue, Director, Division of Investment Management
I
                              From: H. David Kotz, Inspector

                              Date: March 28, 2008
    I                         Re:       Office of Inspector General Inspection - Usefulness of IM's Website (No. 436)
    i
    I
                              Attached is our final inspection report on the Division of Investment Management's
    1                         website. Your oral comments to the draft report have been incorporated a s
                              appropriate.

                               Management concurred with all of our recommendations. We appreciate the
        i                      courtesy and cooperation that was extended to our staff during this inspection.

        j                     Attachment
        I                      cc:      Peter Uhlmann 

                                        Diego T. Ruiz 

                                        Jennifer McHugh 

                                        Barry Miller 

        I                               Paul Goldman 

            1                           Darlene Pryor
            I
                                        Donna Hawkins

                                        Richard Hillman, GAO
   USEFULNESS OF IM'S WEBSITE 

                     EXECUTIVE SUMMARY 

The Office of Inspector General of the Securities and Exchange Commission
conducts regular audits and inspections of Agency operations to promote the
effectiveness, integrity and efficiencyof the Commission.
 We conducted an inspection of the Division of In vestment Management's OM)
intranet site, IMweb, to determine whether it was useful for its staff and to identify
areas in which it could be improved.
Our inspection found that IMweb offeredlimited utility to aMstdoutside of IMs
Office of Enancial Analysis (OF& and Office of Disclosure and Review. The staff in
IMs OFA found the website useful for posting itsfmancial and statistical reports
such as fund watch reports, "dashboard"data, and fund industry statistics, in
electronic form. OFA distributed electronic links to its reports in IMweb instead of
distributing paper copies. Staff in the Ofice of Disclosure and Re view used the
analyses of fund returns in the stock, bond, and money market "watch"reports. In
addition, the s t d tha t we contacted in the Commission 's 0 B c e of Compliance,
Inspections, and Examinations (OCIE) found the fund watch reports useful. OCIE
used LMweb's fund watch reports in its risk assessment activities.
However, the s t d t h a t we contacted throughout DKs other ofices such as the Chief
Counsel's Officeand the Office of Regulatory Policy and In vestment Adviser
Regulation, indicated that A h e b was of little use to them. They indicated that they
seldom used the financial and statistical idormation on M w e b in their work,
although they did use idormation related to filings, no-action letters, and proposed
and final rules. They indica ted that they obtained thisinformation from their own
tracking systems, shared computer drives (on which documents were sometimes
difficult to locate) and the Commission 's website.
Our inspection found that although OFA sent links to its reports to all 19 IM st&
that we contacted, 9 indicated that they did not know about IMweb. Only 4 of 19IM
s t a f f we contacted indicated that they had used the site.
This report provides recommendations on how 2M could improve the usefulness of its
intranet. Options for aM to consider include developing a new intranet using a web-
based tool (e-g., Microsoft Sharepoint), or improving IMweb's utility. However, we
recommend that prior to undertaking any of these actions IMshould clearly specify
the objectives of its intranet to determine how to conduct the improvements. We
also recommend that IWs Information Technology @T)staff use the appropriate
system development procedures and website best practices to implement I W s
intranet improvements.
Our inspection further found that IMweb was difficult to use with the screen reader
software that the visually impaired staff utilizes, We recommend that IMk IT staff
obtain the appropriate assistance and training to ensure that RMweb, and I M s other

Usefulness of 1M's Website                                              March 28, 2008
Inspection 436
                                                                                   Page 2

applications a s appropria te, meet Section 508 of the Rehabilitation Act of 1973
accessibility requirements.
Commission management concurred with all of our recommendations and provided
oral comments to this report.


    OBJECTIVES, SCOPE AND METHODOLOGY 

The objective of the inspection was to determine if t h e Division of Investment
Management's (IM) intranet site (IMweb) was useful to its staff and to identify
potential improvements. We surveyed staff in IM and in the Office of Compliance
Inspections and Examinations (OCIE) regarding IM's intranet.1 We also surveyed
staff in the Division of Enforcement and the Division of Trading and Markets to
discuss how they used their intranets. I n addition, we conversed with staff i n the
Office of Information Technology (OIT) regarding the web-based tool, Microsoft
Sharepoint. Finally, we researched applicable guidance regarding the usefulness of
intranets. We conducted this inspection between August 2007 and January 2008
under the Quality Standards for Inspections dated January 2005.


                               BACKGROUND 

The Commission's 2004 to 2009 Strategic Plan, under the goal to "Maximize the Use
of SEC Resources," includes a n initiative to "Enhance Employee Productivity." This
initiative involves using technology, such as intranets, to improve the flow of
information, capture institutional expertise, and automate internal activities.
Intranets are networks within a n organization for which access is restricted to a
specific group such as offices and divisions within a n agency. Organizations use
their intranets for various purposes, including providilig centralized access t o
information and documents, automating work processes, and providing a means for
groups to collaborate on projects.
IM's Information Technology (IT) staff indicated t h a t it developed IMweb, as it
currently exists, in FY 2002 to provide a site for IM's Office of Financial Analysis
(OFA) to post electronic copies of its reports and to reduce the amount of paper
reports distributed around IM.2 IM's IT staff developed IMweb as a series of basic
HyperText Markup Language (HTML) pages.3 IM's staff reported that its intent was
to receive links to the reports on the intranet site instead of paper reports.
Since the website's inception, IM's Office of Financial Analysis (OFAS posted a
number of its reports on IMweb (e.g., mutual fund and money market watch reports,
"dashboard" report data, investment company industry statistics). The other IM
offices kept their internal documents on shared computer drives and posted many of
their public documents on the Commission's public website a t www .sec.gov.

' OClE uses IMwebs fund watch reports as part of its risk assessment activities.
 OFA indicated that it is IMweb's primary user, but lMweb was developed for all IM.
3
  HTML is used to write internet web pages.
Usefulness of IM's Website                                                      March 28,2008
Inspection 436
                                                                                  Page 3

A number of Commission organizations use intranets. For example, the Division of
Enforcement uses a division-wide intranet that provides document retrieval and
research capabilities. An office in the Division of Trading and Markets developed an
intranet to provide its staff with centralized access to its internal memoranda.
Some Commission offices are developing intranets using a web-based tool (Microsoft
SharePoint), provided by the Commission's Office of Information Technology (OIT).
SharePoint provides centralized document management, document version control,
and other capabilities. IM has a test version of SharePoint. OIT is currently testing
a n updated version of SharePoint and is developing related guidance.
Federal website requirements and best practices primarily address Federal websites
accessible to the public, but may have applicability to intranets. Section 508 of the
Rehabilitation Act of 1973 a s amended, 29 U.S.C. 5794 (dl, requires Federal agencies
to make their technology including intranets, accessible to employees and members
of the public with disabilities to the extent that this does not create an "undue
burden" on the agency.



                      INSPECTION RESULTS 

We found that IM's intranet site, IMweb, offered limited utility for obtaining
electronic versions of OFA's information and reports (e.g.,fund watch reports,
"dashboard data, and fund industry statistics). However, we found that numerous
IM staff did not use the website for these purposes, but, i n fact, used information
from their own tracking systems (databases) and generally posted their documents
to shared computer drives, on which documents were sometimes d f i c u l t to locate,
a n d to the Commission's website. Although OFA sent links to its reports to all 19
IM staff we contacted, 9 indicated t h a t they did not know about IMweb. I n addition,
only 21 percent (4 of 19) IM staff we contacted indicated that they actually used the
site.
We recommend t h a t IM take steps to improve the usefulness of its intranet. Options
include developing a new intranet using a web-based tool such as SharePoint, or
improving IMweb's utility. However, we recommend that IM more clearly speclfy .
t h e objectives of its intranet before it considers ways to improve it. We also
recommend that IM's IT staff use the appropriate system development procedures to
implement IM's intranet improvements.
We also express concerns about the fact that IMweb was difficult to use with the
screen reader software that the visually impaired staff utilize. It is critical t h a t IM's
IT staff obtain the appropriate assistance and training to ensure that IMweb, and
IM's other applications as appropriate, meet Section 508 accessibility requirements.


IM's lntranet
IM's IT staff indicated t h a t it developed IMweb as a basic web page for maintaining
OFA's electronic documents. The IT staff developed IMweb as a n informal system
consisting of a series of simple HTML website pages, and OFA designed the reports
to include on the site. The IT staff did not survey the rest of the IM staff for their
Usefulness of IM's Website                                                  March 28, 2008
Inspection 436
                                                                           Page 4

requirements regarding IMweb or use system development procedures in developing
IMweb.
We surveyed 19 IM staff to discuss their use of IMweb and the sources of the
information that they used in their work. The staff that we contacted were
responsible for activities such as disclosure reviews, interpretative matters, and
rulemaking. These staff used information related to filings, no-action letters, and
proposed and final rules. This information was obtained from IM's computers and
servers, filings and related correspondence on the Commission's Electronic Data
Gathering, Analysis, and Retrieval (EDGAR) system, and from the Commission's
website at www.sec.gov. We found that, other than in Office of Disclosure and
Review, IMweb was not widely used by the IM staff that we contacted. Although
OFA sent electronic links to its reports to all 19 IM staff that we contacted, 9
indicated that they did not know about IMweb. Only 21 percent (4 of 19) IM staff we
contacted indicated that they used the site.
The overriding reason given by the staff who reported that they did not use IMweb
was that it did not provide information that was useful to them. These staff used
multiple sources of information that were located throughout IM including their own
tracking systems (databases), their shared computer drives and the Commission's
website. Some staff told us that internal documents were sometimes hard to locate
on the shared computer drives, and t h a t they would find a more centralized source
for certain internal documents helpful.
As noted in the background section of this report, most of the requirements and best
practices regarding Federal Government web sites apply to sites open to the public.
However, certain best practices also apply to intranet sites. For example,
organizations should:
   (a) Set clear goals for their intranet sites;
   (b) Identify user requirements;
   (c) Monitor whether the site meets users' expectations; and
   (d) Provide useful content.
Systems development procedures generally are considered applicable to large,
complex projects, and include planning, defining requirements, system design,
development, testing, implementation and support. However, these basic concepts
can be applied to systems of any size (i.e., system development efforts should be
planned to ensure that user requirements are met).
The IM staff that we surveyed offered a multitude of views on what would improve
the usefulness of an intranet. For example, several IM staff, including some senior
staff, indicated that a more centralized source of internal documents would be
useful. Another suggestion involved including the text of the Investment Company
and Investment Advisers Acts and the related rules, with the date of the last update
noted on the page. A further suggestion involved restricting access as appropriate to
internal work products that the staff might post to IMweb. We offer the following
additional suggestions:
    a   Upload or link selected internal documents to IMweb from other IM offices;

Usefulness of IM's Website                                            March 28, 2008
Inspection 436
                                                                               Page 5

       Provide links on IMweb's front page to appropriate on-line research sources;
       and
       Include a list of staff contacts in IMweb for Investment Company or
       Investment Advisers Act issues.
After a review of the system, in our view, IM has a t least two alternatives for
improving the usefulness of its intranet. First, IM could develop a new intranet
using a web-based tool such as SharePoint. SharePoint's potential benefits include
centralized document management, document version control (to track revised
drafts), staff collaboration, and other capabilities, which IMweb does not currently
include. IM staff could search for and retrieve documents from a central location as
well a s set up sites for collaboration on document revisions. Second, IM could
improve the usefulness of IMweb (e.g.,in accordance with the suggestions noted
above).
There are certainly advantages and disadvantages to both approaches. SharePoint,
or a similar tool, could provide IM with more sophisticated document management
and staff collaboration capabilities. To obtain these capabilities, however, IM would
have to expend the resources to plan, develop and implement a new system and
train its staff to use it. (One IM office tested the current version of the tool, and did
not find it useful for marking documents and sharing them with other offices.
However, this office was provided with little guidance, no reference materials, and
insufficient permissions in the tool to designate recipients for its documents.) The
other option would be to keep IMweb as is and implement useful changes quickly by,
for example, implementing one or more of the suggestions noted above. In t h a t
scenario, IM would have a tool (IMweb) that may be easier to use, but its capabilities
would be less sophisticated than SharePoint's or a similar tool.
However, prior to considering its options on how to improve its intranet, IM needs to
more clearly identlfy its specific objectives for the tool. Our inspection report and
the feedback from IM staff have revealed that their staff outside of OFA and the
Office of Disclosure and Review, are simply not finding the site useful. Thus, we
believe that IM should consider the findings of this report and make efforts t o more
clearly identify what it hopes to achieve from the website. Developing concrete and
specific objectives would help IM to identify what functions it is seeking its intranet
to provide for its staff and what types of information would be useful to be included
on the site. Identifying clear and specific objectives would help inform IM with
respect to whether it needs to implement a .new intranet or undertake efforts to
improve its existing intranet.
We also believe that IM would significantly improve the likelihood of a successful
intranet project if it incorporated website and system development processes and
best practices. These processes and best practices would not have to be as elaborate
as those for larger, more complex systems. However, these best practices would help
to provide a framework for ensuring t h a t IM obtained a useful result that met its
staffs needs.

       Recommendation A
       IM should identlfy clear and specific objectives for its intranet based upon the
       findings in this report and the feedback from IM staff. IM should discuss
Usefulness of IM's Website                                               March 28,2008
Inspection 436
                                                                                    Page 6

       these objectives with its IT staff and seek further clarification of the staff's
       needs.

       Recommendation B
       After identifying objectives, IM should take appropriate steps to improve its
       intranet, including considering the options described in this report and
       incorporating the feedback from its staff. This effort should include
       developing an appropriate project plan that incorporates applicable website
       best practices and systems development processes. IM might also consider
       consulting with other Commission offices and divisions that have
       implemented intranets.


Accessibilitv   J


To comply with Section 508, agencies are required to provide its blind or visually
impaired
  -       individuals with a means of operation
                                       -        and information retrieval that does
not require user vision.4 Screen reader software such as Job Access With Speech, or
JAWS, verbalizes computer screen contents to allow blind or visually impaired
individuals to use agency technology. For example, screen reader sdftwire allows
individuals to navigate on-screen menus, read documents and spreadsheets, and to
conduct word searches for items.
IMweb was difficult to use with the screen reader software utilized in IM for visually
impaired individuals. For example, the screen reader software was only able to read
the converted part of the section title and one of the section titles on IMweb's main
page was only partly converted into a hyperlink. In addition, while the staff
directory was designed as a table, it actually combined two tables on the same page.
The screen reader software read across both tables, which made the result unclear and
made it difficult to comprehend the table.
In addition, the screen reader produced a n unintelligible result for the fund watch
report that we tested. OFA posted the fund watch reports in Portable Document Format
(pdf). Files in this format can be difficult for screen readers to use. We checked the
document properties for the fund watch reports posted on IMweb for the year 2007.
The entries for the document properties indicated that the documents were not
formatted (tagged) for use by screen readers.
The IM staff we contacted about this either indicated that they were not aware of
the accessibility requirements for IMweb or they assumed that IMweb would work
with the screen reader software.6
The Commission recently organized a working group to address Section 508 issues
(Section 508 Working Group). The Section 508 Working Group includes
representatives from OIT, Office of Human Resources, Equal Employment

 AS implemented by 36 C.F.R. 51 194.31
 The Adobe Acrobat products used to convert the fund watch reports into pdf provided an
"accessibility"feature which included document tagging. This feature appeared to have been
activated on the computer used to convert the fund watch reports. IM's IT staff is looking into
this matter.
Usefulness of IM's Website                                                       March 28,2008
Inspection 436
                                                                              Page 7

Opportunity, and the Office of Administrative Services. The working group has
provided Section 508 awareness training to the Headquarters and field office IT
specialists to familiarize them with Section 508's requirements. Also, the working
group plans to develop policies, standards and guidelines.
IT specialists are responsible for ensuring that the electronic and information
technology in their offices and divisions, including intranet sites, meet Section 508
requirements. For example, IT specialists should consider Section 508
requirements when planning IT projects and developing requirements for new or
modified projects.

       Recommendation C
       IM's IT staff should obtain the appropriate assistance and training to ensure
       that IMweb, and IM's other applications a s appropriate, meet Section 508
       accessibility requirements.



DISCUSSION OF MANAGEMENT COMMENTS 

Commission management concurred with all of our recommendations and provided
oral comments to this report.



              LIST OF RECOMMENDATIONS
Recommendation A
IM should identify clear and specific objectives for its intranet based upon the
findings in this report and the feedback from IM staff. IM should discuss these
objectives with its IT staff and seek further clarification of the staffs' needs.

Recommendation B
After identifying objectives, IM should take appropriate steps to improve its
intranet, including considering the options described in this report and
incorporating the feedback from its staff. . This effort should include developing a n
appropriate project plan that incorporates applicable web site best practices and
systems development processes. IM might also consider consulting with other
Commission offices and divisions that have implemented intranets successfully

Recommendation C
IM's IT staff should obtain the appropriate assistance and training to ensure that
IMweb, and IM's other applications a s appropriate, meet Section 508 accessibility
requirements.




Usefulness of IM's Website                                              March 28,2008
Inspection 436
